1

20°

3

ORIGINAL
FILED

IN THE
SUPREME COURT OF THE UNITED STATES

KEC 6$ ®

*************************

CLARENCE JACKSON - PETITIONER
vs

DISTRICT OF COLUMBIA COURT OF APPEALS ADMISSIONS
COMMITTEE et. al.

****************************

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

PETITION FOR WRIT OF CERTIORARI

RECEIVED
DEC 2 3 2020
gu%ClM°EFrBf^

Clarence Jackson
P. 0. Box 2141
Decatur, Illinois 62524
PH 217 848-2587
Petitioner - Dr. Clarence Jackson
E-Mail : JACKKSSN@HOTMAIL.COM

QUESTION PRESENTED FOR REVIEW

1. Does the background that is established in the recently filed Petition
for Writ Certiorari in this court at case number 20-5544 the 98 plus
percent of the power and wealth that Caucasians hold verses the
virtually powerless less than the 2 percent of the same by generic
black Americans allows for this 98 plus percent representation of
Caucasians as Attorneys in the United States to engage in racism ,
fraud ,theft and any unlawful or illegal tactic necessary to keep this
prima facie case of 98 plus percent of Attorney licenses totally
Caucasian and no matter what the legal system saysf or do ,even
after a judgement against them for racism, fraud , theft and any­
thing else imaginable, this extreme white supremacy superiority
trademark (law license ) will not be disturb ^specially to correct
this injustice that occurs routinely against the majority of black law
license candidates that reaches the bar anywhere and will subvert
any legal challenge process even after judgment by not providing
discovery or anything else required under the rules when under
law they must so any cover up of the racism and fraud specifically
against generic blacks as presented herein, especially men will be
exposed as in this total case and lets see what happens now ?

2

CORPORATE DISCLOSURE STATEMENT
Petitioner- plaintiff, Clarence Jackson , Juris Doctor (JD), is a
natural person as such and not affiliated with any corporation , thus,
making a statement as such is not required .

i

.

I***

3

List of Proceedings In Court
i

(a) Court: United States District Court
For The District of Columbia
(b) Caption : Clarence Jackson (plaintiff) vs District of Columbia Court of
Appeals Admissions Committee et. al. (defendant)
(c) Docket No.: 16-cv-02049
i
(d) Entry of Judgment (dismissal): October 29,2019

II
(a) Court: United States Court Of Appeals
For The District of Columbia Circuit
Caption : Clarence Jackson, Appellant vs District of Columbia Court of
Appeals Admission Committee et. al.; Appellee
Docket No.: 19-7148
Date of Dismissal: May 14,2020
, Petition For Rehearing
September 18 , 2020

i

4

Table of Contents

Page
OPINION BELOW

7

JURISDICTION

8

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

8

REASONS FOR GRANTING THE WRIT

9

I.

STATEMENT OF THE CASE

13

II .CONCLUSION

14

Index of Appendices

Appendix A
I

Page
Decision/order from tht- District Court, District of Columbia , October 29,2019 . ...

1

II
Decision/order from the United States Court of Appeals , D.C. Circuit on the appeal
which was defendant/appellee " Motion For Summary Affirmance " May 14,2020. . . 2
III
Decision /order from the United States Court of Appeals, D.C. Circuit on Appellant's
" Motion For Rehearing " September 18,2020 .........................................................

5

5

Appendix B

I

The recently filed with the U.S. Supreme Court the " Petition For Writ of Certiorari "
case no. 20-5544, July 7,2020 without appendix attached.....................................

1

II
Plaintiff's complaint at issue filed in D.C. Federal Court, October 11, 2016

15

III
Copy of the Judgment Plaintiff/Appellant received on the complaint filed in II
above dated November 16,2018 at U.S. States Court of Appeals , D.C. Circuit at
case no. 17-7056 ..................................................................................................

21

III
Appellant's Response To Appellees's " Motion For Summary Affirmance " and Appendix
dated February 25,2020 . .................................................................................................

28

IV
Appellant's " Motion For A Rehearing" file in the U.S. Court of Appeals, D.C. Circuit,
Dated July 16,2020 ........................................................................................................

88

VI

Cover page for the receipts the court has electronically filed documenting the expenses for
postage and mileage concerning the Judgment, dated November 7,2019....................... 89

6

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petition respectfully prays that a Writ of Certiorari issue to review the
judgment of the court below :

OPINIONS BELOW

(1)

United States District Court Judge, Amit P. Mehta issued a
decision on October 29 , 2019 denying plaintiff , Clarence
Jackson request for payment on the Judgment Jackson obtained
at the United States Court of Appeals , D.C. Circuit on December
28,2018 . Judge Mehta reversed the D.C. Circuit Judgment when
he dismissed Jackson's total case . Jackson timely appealed the dis­
missal .

(2)

On May 14th , 2020 the United States Court of Appeals For The
D.C. Circuit further granted the defendant's " IVJotion For Sum­
mary Affirmance " which essentially agreed with Judge Mehta's
decision in no. 1 above . The judges who decided the Judgment in
Jackson's favor were not the same as the judges who granted de­
fendant's "Motion For Summary Affirmance ", in other words
the defendants went Judge shopping .

(3)

Appellant Jackson never received the decision by the appeals
court and did not find out about this decision until after the
mandate was issued .On July 16,2020 after Jackson learned about
the Summary Affirmance decision by the court a "Petition For A
Rehearing was filed .

(4)

On September 18,2020 Jackson's " Petition For A Rehearing "

7

was denied by the court, which consisted of the same Judges that
granted defendant's " Motion For Summary Affirmance " .

JURISDICTION

The date on which the United States Court of Appeals For The
D.C. Circuit rendered a decision on the case appealed from the United States
District Court was September 18,2020 on a " Petition For Rehearing

Petitioner

files this present petition for Writ of Certiorari within the 90 days after the D.C.
Circuit affirmed the district court ruling to deny petitioner's constitutional right
to qualify for and obtained Attorney work without the 98 plus percent
of Caucasian only ran law license process by cheating petitioner out of his passing
Bar score using fraud and theft motivated by racial hatred in how Jackson's
candidacy was handled . Further, 28 U.S.C. Sec. 1254 (1) provide additional
authority for the United States Supreme Court to allow this petition to proceed .

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The issues of the petition involved the constitutional provisions
as presented in 42 U.S.C. Sect. 1983 (government officials conduct while acting
under the color of law ) and U.S .C. A . Amendment XIV, Sect. 1, denying access

8

to Attorney work by the back door process of withholding a passing grade and
when sued for racial hatred tactics as is in this instant case violated the discovery
rules by not producing requested information supported by a " Motion To Com­
pel ". This allegation is presented in plaintiffs original complaint at the first
no. 4 , which is located at ,App. B(ll).
REASON FOR GRANTIING THE WRIT

Note, the defendants never produced the discovery petitioner
requested even after Judgment against them which in law rules entitles Jackson
to summary Judgement injunctive and legal relief, such as the release of the
law license and monetary damages including, out of the pocket and tort
The yellow, black and white pages of a phone book for any
city in the United States will give clear visual of the evidence necessary to deter­
mine the ongoing white supremacy racism gang bang that exist against every
generic (as an uninterrupted descendant since slavery ) black citizen . This gang
activity is the 98 plus percent of Caucasians that either owns or participate in the
U.S. as employers, businesses, Judgeships, politicians, individuals with doctor or
Lawyer licenses and generally all job or activity that pay over a hundred thousand
dollars a year in income except in entertainment (sports , music ,etc.). Note , that

9

this is the case even though there has been 155 years since slavery . Some
that exist say that even a few years (ten or so) out of slavery generic blacks had
or owned a larger percent of the total economy at that time ( 1865 -1880's )
than what generic blacks owned today (2020). Of course we afe still only talking
about less than 5 percent of the country's total wealth and power.
The problem with Caucasians owning or controlling 98 plus percent
of the U.S. economy as stated herein , is that Caucasians are less that 65 percent
of the population but creates a prima facie case in law as far as law suits are
concerned in all of these 98 plus percentage specific areas of economic life,
especially in the areas of generic blacks share of law licenses and passing Bar
scores . And since the Bar score is the pivotal point toward Attorney work, it is
crucial that discovery be had in order to obtain a Judgment thajt exposes how
in this instant case the 98 plus percent of Caucasians use of racism , fraud ^heat­
ing , theft and basically any tactic imaginable to do what is in the final analysis,
extort funds from the majority of black Bar candidates .The extortion action by
this law process displays an intention of never issuing a law license to these
generic blacks (that is the majority), especially black men, no matter what
score is obtained or ability demonstrated during the process .

10

Again , since law license work requires a law license, Caucasians has
enjoyed the billions and billions of dollars that are generated by the Attorney
work profession annually while generic blacks, do less than 2 percent of At­
torney work . The 98 percent of all law license work in the United States as prac­
ticed by Caucasians daily could not exist consistently for 155 years since slavery
ended , unless cheating, fraud ,theft, extortion , racism and anything that could
keep generic blacks away from their share . An example of this of kind behavior is
what happened to the judgment petitioner obtained in the United States Ap­
peals Court on December 28, 2018 . The judgment was not appealed by the
defendants so the judgment has full faith and credit as written . The defendants
used the 98 plus percent power to force the court to keep the practice of reject­
ing the majority of generic black Bar candidates and hide behind racism , fraud ,
theft, extortion and cheating to get the job done . All of these acts by the defen­
dants were plead in petitioner's initial complaint and was wh6t the judgment
was based on . If petitioner were not a generic black man he would be doing
Attorney work somewhere helping out himself financially and the community
at large . Since petitioner plead injunctive relief in the complaint as well other
damages as indicated the defendants should be ordered to officially authorized

11

petitioner the freedom to do licensed Attorney work without interference or pay
petitioner the value of his already earned but withheld law licerise . The value of
the denial of Attorney work for over 32 years , that is, from 1988 to present, be­
cause this is the period of time Jackson should have been allowed to practice law
is easily $20,000,000 .
The violation of 42 U.S.C. 1983 and the 14th amendment as ex­
plained herein using fraud , theft, racism and cheating for extortion reasons has
more than provided enough facts and information for reasons to grant the
" Writ" . It is important to show a high level of integrity and generally respect for
the courts as was not shown in how the U.S. District Court reverked the U.S. Court
of Appeals Judgment and how the law license process have to use the tactics that
is demonstrated herein to cover up the Judgment the rejected Bar candidate "
Jackson" skillfully obtained that most likely not one of the Caucasian that re­
ceived law licenses during this " Bar sitting " could have matched . The Writ can
make a statement toward the approval or rejection of the wrong by the officials
where ever they may be by its issuance or just correction of the bad conduct.
STATEMENT OF THE CASE
Statement of The Case, here. Is covered under llhe " Reasons
For Granting The Writ " section because each area are basically the same topic .

12

CONCLUSION

The conduct of intimidating the district court Judge so
discovery requests by Jackson would not ever be complied with , reversing the
Judgment ordered and issued by the Federal Appellate Court and going Judge
shopping to keep the generic black " Jackson " away from his entitled and
achieved passing Bar score clearly shows how the defendants will go to
great lengths to demonstrate contempt and disrespect towarc Jackson , the
court and the law license process just because Jackson is a generic black
American citizen who is contesting being basically cheated out of his law
practice income (work ). Petitioner appendix B filing shows the work done
to claim the expenses(out of the pocket), injunctive and tort damages that
the filed receipts more then support the amount requested up to $20,000,000 .

Date
Petitioner -+ Clarence Jackson

13

